<html>
<title> - [H.A.S.C. No. 111-118] STATUS OF THE AIR FORCE NUCLEAR SECURITY ROADMAP </title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-118] 

                        STATUS OF THE AIR FORCE 

                        NUCLEAR SECURITY ROADMAP 

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 21, 2010

                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-259 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                     STRATEGIC FORCES SUBCOMMITTEE

               JAMES R. LANGEVIN, Rhode Island, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           TRENT FRANKS, Arizona
RICK LARSEN, Washington              DOUG LAMBORN, Colorado
MARTIN HEINRICH, New Mexico          MIKE ROGERS, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
                 Rudy Barnes, Professional Staff Member
                Bob DeGrasse, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, January 21, 2010, Status of the Air Force Nuclear 
  Security Roadmap...............................................     1

Appendix:

Thursday, January 21, 2010.......................................    29
                              ----------                              

                       THURSDAY, JANUARY 21, 2010
            STATUS OF THE AIR FORCE NUCLEAR SECURITY ROADMAP
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     2

                               WITNESSES

Alston, Maj. Gen. C. Donald, USAF, Assistant Chief of Staff, 
  Strategic Deterrent and Nuclear Integration, U.S. Air Force....     4
Klotz, Lt. Gen. Frank G., USAF, Commander, Air Force Global 
  Strike Command, U.S. Air Force.................................     6
Thomas, Brig. Gen. Everett H., USAF, Commander, Air Force Nuclear 
  Weapons Center, U.S. Air Force.................................     5

                                APPENDIX

Prepared Statements:

    Alston, Maj. Gen. C. Donald..................................    33
    Klotz, Lt. Gen. Frank G......................................    48
    Thomas, Brig. Gen. Everett H.................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    61
    Mr. Turner...................................................    66
            STATUS OF THE AIR FORCE NUCLEAR SECURITY ROADMAP

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                        Washington, DC, Thursday, January 21, 2010.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. James R. Langevin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
   FROM RHODE ISLAND, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Langevin. Good morning. This hearing of the Strategic 
Forces Subcommittee will come to order.
    Today's hearing will review the Air Force's progress in 
revitalizing its nuclear enterprise following the serious 
incidents involving nuclear weapons and weapons-related 
components that occurred or came to light between August 2007 
and March 2008.
    Those incidents spawned numerous investigations into, and 
assessments of, Air Force and Department of Defense [DOD] 
nuclear security procedures.
    In Congress and in the Pentagon, these incidents were 
recognized as indicators of deterioration in the structure, 
procedures, culture and leadership of the Air Force's nuclear 
enterprise that had evolved over more than a decade. So at a 
more basic level, the purpose of this hearing is to examine how 
well the Air Force is doing addressing these fundamental 
concerns.
    Given the significance of these issues, I think it is 
fitting that this is our first hearing of the year and, indeed, 
the first hearing I have chaired since becoming chairman of the 
subcommittee.
    In that context, I am very pleased to welcome our three 
very distinguished witnesses:
    Lieutenant General Frank G. Klotz, Commander, Air Force 
Global Strike Command; Major General C. Donald Alston, 
Assistant Chief of Staff, Strategic Deterrent and Nuclear 
Integration, Headquarters, U.S. Air Force; and Brigadier 
General Everett H. Thomas, Commander, Air Force Nuclear Weapons 
Center, Kirtland Air Force Base.
    In his report into the Minot-Barksdale transfer more than a 
year ago, Major General Doug Raaberg stressed maintaining 
custody and control over our nuclear weapons is about people 
executing their responsibilities properly, which is in turn 
based on training, supervision, and leadership.
    The several reviews that followed both the Minot-Barksdale 
transfer and the mistaken shipment of sensitive missile 
components to Taiwan also stressed training, supervision, and 
leadership.
    These reviews, including the report ordered by Secretary 
Gates, focused on the need for better organizational structure 
and accountability. Indeed, the Air Force's recovery roadmap 
created the positions occupied by our witnesses--General Klotz 
as Commander of Global Strike Command, General Alston as the 
integrator of all things nuclear on the Air Staff, and General 
Thomas' responsibility with Air Force Materiel Command for all 
nuclear weapons sustainment.
    Each of these changes was designed to demonstrate the Air 
Force's increased focus on the nuclear mission.
    As significant as these changes are, however, nuclear 
inspection results over the course of 2009, and changes in 
command late last year at some of our ICBM [Intercontinental 
Ballistic Missile] bases underscore the degree to which 
training, supervision, and leadership remain fundamental 
challenges for the Air Force.
    At the end of the day, it is our airmen that keep our Air 
Force strategic weapons safe and secure. So I look forward to 
hearing what the Air Force is doing to improve the training, 
supervision, and leadership of our airmen.
    With that, let me now turn to our ranking member, Mr. 
Turner, for any opening comments that he may have. Thank you, 
Mr. Turner.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Mr. Chairman.
    I first want to recognize you in your first hearing as 
chairman of the Strategic Forces Subcommittee. I have had the 
pleasure of working with our chairman for several months now, 
and I look forward to our continued joint efforts of oversight 
on the subcommittee. I also look forward to learning more of 
the chairman's priorities, one of which I know is the concern 
of our vulnerability for cyber-attacks. I look forward to your 
leadership on the committee.
    Today's hearing on the Air Force nuclear enterprise is a 
topic of strong bipartisan concern. Nuclear weapons safety and 
security are of paramount importance. There is no margin for 
error. Yet, 2 years ago, there were serious errors. In August 
2007, nuclear weapons were mistakenly transferred aboard a B-52 
from Minot to Barksdale Air Force Base. Roughly 7 months later, 
the committee learned about the misshipment of ICBM nose cones 
to Taiwan.
    Several high-level internal and independent reviews 
followed. The Secretary of Defense Task Force on DOD Nuclear 
Weapons Management, led by Dr. James Schlesinger, concluded, 
``There has been an unambiguous, dramatic, and unacceptable 
decline in the Air Force's commitment to perform the nuclear 
mission and, until very recently, little has been done to 
reverse it.''
    The severity of these incidents led to Secretary Gates' 
direct intervention in his commitment to ``correcting the 
systemic and institutional nuclear weapons stewardship problems 
that have been identified.''
    Significant leadership and organizational changes were made 
within the Air Force. Three new organizations were 
established--Global Strike Command, A-10, and the Nuclear 
Weapons Center--each of which are represented by our witnesses 
today. A Nuclear Security Roadmap containing a comprehensive 
set of corrective actions was developed.
    However, mishaps continue to plague the Air Force nuclear 
enterprise. In October, two wing commanders at Minot were 
relieved of duty in response to continued lapses in procedure 
and security. Headlines continue to be made with nuclear units 
that receive unsatisfactory ratings on their nuclear surety 
inspections.
    We understand that changes take time, and the progress 
being made by the Air Force is certainly commendable. However, 
we also need to understand why, 16 months after the release of 
the roadmap, that these incidents continue. What challenges and 
impediments to roadmap implementation remain?
    Leadership and organizational changes cannot be effective 
without cultural change. As the Schlesinger report noted, ``An 
essential element of leadership involves inspiring people to 
feel they are doing important work and are valued for it.''
    I would appreciate our witnesses' thoughts on how to change 
that culture and how to sustain those changes. I know that has 
been a substantial focus of your efforts. We certainly 
appreciate your work and look forward to your success.
    I am also interested in how the Air Force cultivates its 
next generation of nuclear leaders and experts. Is the nuclear 
mission an attractive career field for airmen, particularly as 
policymakers seek to shrink it?
    The various reviews highlighted a particular concern with 
positive inventory control of nuclear weapons and nuclear-
related components. I share this concern. I believe this is an 
area where technology can play a greater role, rather than just 
brute force methods. The challenge, however, is moving from 
ideas and basic research to fielding solutions that can have an 
immediate effect on improving nuclear inventory control.
    Lastly, I think it is noteworthy that this renewed focus 
has led to greater advocacy and involvement by the Air Force in 
the Nation's nuclear policy and posture. Several Air Force-
related nuclear forces issues require decisions and/or 
investments in the next few years, such as the B-61 Life 
Extension Program, the Next-Generation Bomber and a potential 
ICBM follow-on.
    I hope that the Nuclear Posture Review that the 
Administration will soon release will lay the groundwork for 
addressing these key Air Force nuclear issues and investments. 
I would be interested in our witnesses' thoughts on how 
improvements made to the Air Force nuclear enterprise will 
assist in these decisions.
    There is no doubt in my mind that our witnesses here 
today--General Klotz, General Alston, and General Thomas--have 
an incredibly tough job. I want to thank each of you for your 
service to our Nation. You are in these leadership positions 
because the Department and we are confident in your abilities 
to reinvigorate the enterprise.
    I look forward to your testimony. Thank you.
    Mr. Langevin. I thank the ranking member. Mike and I worked 
together for quite a few years on the Armed Services Committee, 
and I am looking forward to our continued working relationship. 
Thank you.
    With that, in consultation with our witnesses, we are going 
to go not in rank order, but in more of chronological order, in 
the terms of Air Force's efforts to revitalize the nuclear 
mission. We will start with General Alston, then move to 
General Thomas, and conclude with General Klotz.
    General Alston, the floor is yours.

STATEMENT OF MAJ. GEN. C. DONALD ALSTON, USAF, ASSISTANT CHIEF 
OF STAFF, STRATEGIC DETERRENT AND NUCLEAR INTEGRATION, U.S. AIR 
                             FORCE

    General Alston. Mr. Chairman, Ranking Member Turner, 
members of the committee, thank you for this opportunity to 
discuss Air Force strategic deterrence programs and the 
progress the Air Force has made reinvigorating the Air Force 
nuclear enterprise.
    Nuclear systems require uncompromising mission focus, and I 
am proud to represent the Air Force with two leaders who have 
brought that level of focus to their duties throughout their 
distinguished careers: Lieutenant General Frank Klotz, the 
Commander of Air Force Global Strike Command, our newest major 
command, executing arguably our longest-standing mission; and 
Brigadier General Everett Thomas, who has been driving major 
changes throughout his tenure as the Commander of the Air Force 
Nuclear Weapons Center.
    Reinvigorating the Air Force nuclear enterprise has been 
the Air Force's top priority for the past 18 months. The 
foundation of our effort was a comprehensive roadmap titled 
``Reinvigorating the Air Force Nuclear Enterprise.'' This 
roadmap was a product of an Air Force Task Force that analyzed 
and integrated the findings and recommendations of a series of 
reviews of our processes and performance by expert 
distinguished national leaders.
    Under the direct leadership of the Secretary of the Air 
Force and the Chief of Staff, we have been on an urgent but 
deliberate path to not only correct deficiencies but to set the 
conditions for renewed proactive stewardship of this vital 
mission area. We have made significant structural changes, both 
in the field and at headquarters. We have made extensive 
process changes from resourcing the mission to inspections. And 
as the changes take root, we expect to see long-term cultural 
impact across the enterprise.
    The credibility of our strategic deterrent depends on 
capable systems and competent people. Consistent, precise, and 
reliable performances by our forces to our uncompromising 
standards, together with safe, secure, and reliable deterrent 
systems, are the daily objectives of our fielded forces.
    My role is to support those forces as they require and to 
integrate air staff efforts to ensure success across the Air 
Force nuclear enterprise. Daily success deters adversaries and 
assures our allies. Despite comparable success over the past 18 
months, there is still work to be done.
    I look forward to your questions. Thank you.
    [The prepared statement of General Alston can be found in 
the Appendix on page 33.]
    Mr. Langevin. Thank you, General Alston.
    General Thomas, the floor is yours.

STATEMENT OF BRIG. GEN. EVERETT H. THOMAS, USAF, COMMANDER, AIR 
          FORCE NUCLEAR WEAPONS CENTER, U.S. AIR FORCE

    General Thomas. Mr. Chairman, Ranking Member Turner, 
distinguished members of the Strategic Forces Subcommittee, 
thank you for this opportunity to discuss the current state of 
the Air Force's nuclear sustainment efforts.
    On behalf of a dedicated team of military, civilian, and 
industry professionals, I am pleased to report our sustainment 
and stewardship of nuclear weapons and support equipment is 
much improved since 2007. Our progress to date is a direct 
result of the continuing evolution of the Air Force's vision to 
address gaps in the nuclear enterprise as far back as 2003, 
when a series of reports highlighted the need for a single 
manager for nuclear weapons sustainment. Thanks to the strong, 
unwavering leadership of Secretary Donley, General Schwartz, 
General Hoffman, and many others, including my fellow general 
officers here today, we have made considerable progress toward 
creating a center of excellence with a singular responsibility 
that is nuclear sustainment.
    This realignment is reminiscent of the Air Force plans 
dating back to 1949. This is profound in that since 1992, 
following the deactivation of Strategic Air Command, there was 
no single four-star officer charged with understanding and 
articulating the needs of the Air Force with regard to nuclear 
sustainment below our Chief of Staff.
    Today, the Commander of Air Force Materiel Command, General 
Donald Hoffman, is vested with this authority. In addition, I 
am accountable for day-to-day nuclear sustainment issues and 
partnerships with all of the Air Force Materiel Command centers 
and with oversight of an entire MAJCOM, major command staff. 
Together, we keep our Secretary, Chief of Staff, and our Air 
Force warfighting customer, General Klotz, informed and engaged 
in the sustainment of nuclear weapons, delivery vehicles, and 
associated support equipment.
    In addition, we have gained approval to establish a flag-
level Air Force Program Executive Officer, or PEO, for 
Strategic Systems in direct acknowledgment of the Schlesinger 
report's recommendations. This PEO for Strategic Systems will 
ensure future acquisition efforts are properly aligned with 
near-term sustainment challenges. To ensure these efforts 
remain integrated and synchronized with day-to-day operations 
and sustainment, the new PEO will be co-located with the Air 
Force Nuclear Weapons Center at Kirtland Air Force Base, New 
Mexico.
    Let me assure you that all we have done over the past few 
years and all we will do over the coming years is driven by 
renewed commitment to the oldest, highest, most fundamental and 
most demanding tenet of nuclear capability--surety--that we 
deliver safe, secure, reliable nuclear capability to Air Force 
Global Strike Command.
    I look forward to discussing with you our gains in direct 
support to the warfighter, our growing partnerships, efforts we 
have made in gaining positive inventory control of nuclear 
weapons-related material, and our work to prepare for the 
future.
    I have a written statement that goes into more detail. With 
your permission, we would like to enter it into the record.
    Again, thank you for this opportunity and for all this 
committee is doing to support our strategic forces.
    I look forward to answering your questions.
    [The prepared statement of General Thomas can be found in 
the Appendix on page 40.]
    Mr. Langevin. Thank you, General Thomas.
    General Klotz, I look forward to your testimony. Welcome.

  STATEMENT OF LT. GEN. FRANK G. KLOTZ, USAF, COMMANDER, AIR 
          FORCE GLOBAL STRIKE COMMAND, U.S. AIR FORCE

    General Klotz. Good morning, Mr. Chairman, Ranking Member 
Turner, and distinguished members of the committee.
    It is an honor to appear before you for the first time as 
the Commander of Air Force Global Strike Command. In fact, this 
is the first hearing that any member of Air Force Global Strike 
Command has ever testified before. I thank you for the 
opportunity to discuss the current status of the Air Force's 
newest major command.
    Now, as you know, Air Force Global Strike Command was 
established as part of a broader roadmap developed by Secretary 
of the Air Force Michael Donley and our Chief of Staff General 
Norton Schwartz to refocus our attentions and our efforts on 
the nuclear enterprise and to ensure that as long as nuclear 
weapons are part of our national strategy that they will remain 
safe, secure, and reliable.
    Now, the command itself is being established and stood up 
in a very systematic step-by-step approach. The first step was 
to stand up a provisional command just over a year ago at 
Bolling Air Force Base here in Washington, D.C., under the 
leadership of then-Brigadier General, now Major General Jim 
Kowalski, who now serves as the Vice Commander of Global Strike 
Command. Its principal tasks were to develop the initial 
planning documents, to define manpower requirements, and to 
begin assigning people to Global Strike Command.
    The next step took place on August 7, when General Schwartz 
formally activated Global Strike Command in a ceremony at 
Barksdale Air Force Base in Louisiana, the permanent site of 
our new headquarters.
    Since then, the Command has followed a detailed plan to 
bring all of the Air Force's long-range nuclear-capable forces 
under a single major command.
    In executing this comprehensive plan, Global Strike Command 
develops and provides combat-ready forces for nuclear 
deterrence and global strike operations in support of the 
President and the combatant commanders.
    Now, the first actual transfer of forces occurred on the 
1st of December when Global Strike Command assumed 
responsibility for the intercontinental ballistic missile 
mission. Under the new command arrangements, 20th Air Force, 
which is headquartered at F.E. Warren Air Force Base in 
Wyoming, and its three ICBM wings--the 90th at F.E. Warren Air 
Force Base, the 341st at Malmstrom Air Force Base in Montana, 
and the 91st at Minot Air Force Base in North Dakota--now all 
fall under Global Strike Command.
    On the same day, Air Force Global Strike Command also took 
charge of the ICBM test mission of the 576th Flight Test 
Squadron near Vandenberg Air Force Base in California and the 
targeting analysis mission of the 625th Strategic Operations 
Squadron at Offutt Air Force Base in Nebraska.
    In just 10 days, on the 1st of February, the transfer of 
forces to Global Strike Command will be complete as our new 
command assumes responsibility for 8th Air Force and the long-
range, nuclear-capable bomber mission from Air Combat Command. 
Eighth Air Force headquarters is also located at Barksdale Air 
Force Base, Louisiana, and exercises command over two B-52 
wings, the wing there at Barksdale itself as well as the wing 
at Minot Air Force Base in North Dakota, and it also exercises 
command over the B-2 wing at Whiteman Air Force Base in 
Missouri.
    Global Strike Command will achieve full operational 
capability later this summer, 2010, with about 900 people on 
board at our headquarters at Barksdale Air Force Base and 
nearly 23,000 people in the entire Command.
    As the other two--my two colleagues have said, nuclear 
deterrence and global strike forces of the Air Force remain 
vitally important to the Nation as well as to our friends and 
allies around the world. For the men and women of Air Force 
Global Strike Command, that means we have an extraordinarily 
important mission, noble and worthy work to perform and work 
that demands the utmost in professionalism, discipline, 
excellence, pride, and esprit.
    The new Command also reflects the Air Force's firm and 
unshakeable conviction that strategic nuclear deterrence and 
global strike operations are a special trust and 
responsibility, one that we take very seriously. This Command 
will serve as the single voice to maintain the high standards 
necessary in stewardship of our Nation's strategic nuclear 
deterrence forces.
    Like General Thomas, I have a longer written statement that 
I would like to enter into the record.
    I would like to thank you again, Mr. Chairman, for the 
opportunity, and other members of the committee, for the 
opportunity to present today the status of Air Force Global 
Strike Command. Thank you, sir.
    [The prepared statement of General Klotz can be found in 
the Appendix on page 48.]
    Mr. Langevin. Very good. General, thank you for your 
testimony.
    I am going to thank the panel for their testimony.
    Before I begin with my questions, I also want to welcome 
our colleague, Representative Fleming, to the hearing. Welcome. 
While not a member of the subcommittee, Mr. Fleming has a 
strong interest in these issues, I know. No wonder, since his 
district is home to Barksdale Air Force Base, home of Global 
Strike Command.
    So, Representative Fleming, welcome to this hearing this 
morning. Once each of the subcommittee members have had a 
chance to ask questions in turn, we will turn to you to also be 
able to ask some questions, without objection.
    Dr. Fleming. Thank you.
    Mr. Langevin. With that, I would like to begin with a 
question for General Alston.
    General Alston, you have described Air Force organizational 
changes associated with the Nuclear Security Roadmap as 
consisting of ``three big muscle movements'' in your testimony: 
the creation of your position within the Air Force 
headquarters, the consolidation of all nuclear weapons 
sustainment activities at the Nuclear Weapons Center in 
Albuquerque, and the standup of Global Strike Command. My 
question is, how do you assess the impact of these changes at 
this stage?
    General Alston. Thank you, Mr. Chairman.
    I think that we have, despite there just being 18 months 
since we began this effort with the Secretary of the Air Force, 
with Mr. Donley taking responsibility as the Secretary of the 
Air Force and with Major General Schwartz stepping up to become 
Chief of Staff, we established the A-10 function, my Office of 
Strategic Deterrence and Nuclear Integration on the first of 
November, 2008, and we had essentially the opportunity to go 
through a budget cycle with my office being able to contribute 
to that part of the cycle and leverage the changes that we have 
made to the resourcing process that the Air Force has.
    There has been a change to that where we have established a 
nuclear operations panel that enables or ensures that we are 
thoroughly working through all of the nuclear-related 
requirements. I have a seat at the table throughout that 
process from one end all the way to the culminating piece of 
that, which is the Air Force Council which makes 
recommendations to the Chief and Secretary. So my office has 
been able to wade into that, as the Chief and Secretary have 
intended that we would be able to do.
    The Air Force Nuclear Weapons Center has a legacy that is a 
few years old, but they have been growing in numbers, virtually 
tenfold over the course of these 18 months, to fulfill all of 
the responsibilities that we have levied upon them to take full 
responsibility for all of sustainment of our nuclear systems.
    General Thomas can speak to that more thoroughly than I 
can, but the integration of his efforts and the long-range 
planning that he has already been able to contribute to our 
processes has enabled us to start to get a footing on examining 
the issues related to the--what it is going to take to sustain 
the Minuteman III to 2030 and beyond. And that is already--he 
has already produced a roadmap that we continue to refine but 
is already contributing to the Air Force corporate process and 
are stepping up to the stewardship responsibilities that we 
have.
    In my organization, we also created a requirements 
division. And because at this point in time General Klotz will 
grow the capacity to be the requirements driver for the nuclear 
enterprise, at this time filling that void, I have the capacity 
to contribute to that. And because my office was stood up, we 
have been able to complete a capabilities-based assessment of 
our follow-on airlines cruise missile capability, and it is 
going through the requirements development process this spring, 
and then analysis of alternatives will begin in the fall.
    So I think that--and now Global Strike Command, on time and 
on target, taking responsibility for the ICBM mission on the 
1st of December and now within a couple of weeks fulfilling the 
organizational alignment on the 1st of February with 8th Air 
Force nuclear-capable bombers coming over, we can already see 
the tangible changes that the Secretary and the Chief had 
intended being manifested in the actual consequential work that 
we are all getting the chance to do.
    Mr. Langevin. In each of these changes, can you give me 
your assessment? Are each of them at your highest confidence 
level, the changes that were made, still some work in progress, 
or are they at your highest confidence level?
    General Alston. Sir, my organization was probably at about 
40 people in April, and I am at about 120 right now. I am just 
finishing the hiring of civilians. So all of my uniformed 
forces have arrived. But they, too, need to be cultivated, and 
they need to be oriented on the challenges that are in front of 
us. So it is a work in progress in terms of me really finding 
my full stride. I have got the responsibility, and I have got 
critical mass to get my job done.
    I will leave my two colleagues to describe their assessment 
of the maturity of their parts of this enterprise.
    But as I have heard the Chief say, airmen didn't fail the 
Air Force when they had these breakdowns; the Air Force failed 
our airmen. And we had not given the enterprise the attention 
that nuclear missions demand, and this has gone on for an 
extended period of time.
    So these organizational changes that we are making are very 
important. But without the leadership and the prioritization by 
the Chief and the Secretary, and without that prioritization 
being carried out at every level of our Air Force, I don't 
think that the organizational changes in and of themselves will 
carry the day.
    So I think it is that continued focus by our leadership at 
all levels, and the absolutely unambiguous clarity that the 
Chief and Secretary have given the nuclear mission, that is 
really the principal driver to the advancements that we have 
made so far.
    Mr. Langevin. Very good.
    Well, for any of the generals at the table, I would like to 
ask a question about what I will call inventory control. Can 
you tell me what the current state of the Air Force inventory 
control over our nuclear weapons within its control is right 
now? For instance, is the Air Force able to identify where each 
of the nuclear weapons within its control is at any given 
moment?
    General Thomas. Mr. Chairman, I will be happy to answer 
that one for you.
    The short answer is, yes, sir. Upon standing up the Air 
Force Nuclear Weapons Center and robusting it up under 
Secretary Donley and General Schwartz, our peer view, the 
charge I had immediately was to understand on a day-by-day 
basis where every nuclear weapon was in the Air Force, to 
include if it was going to move, where it was going to move, 
time, location, how it was going to move.
    So I have that responsibility, and I take it very 
seriously. Every week, I get an update; and if there is an out-
of-schedule movement, we review the update. We funnel that 
update to our counterparts in Global Strike Command and General 
Alston. My boss, General Hoffman, immediately gets an update; 
and so, ultimately, the Chief, General Schwartz, and the 
Secretary of the Air Force are updated on weapons movement.
    It is a pleasure of mine to be involved in that, and it 
goes back to a statement by Ranking Member Turner is how are we 
communicating down to the youngest airman that this is an 
important mission? That is one of them, by my daily involvement 
in it, by me being able to communicate to a unit that is moving 
a weapon, the importance of ensuring that we have 
accountability, not just visual accountability but the 
documentation that is done through our information, technology 
systems, and personal visits.
    I personally would like to thank the ranking member for 
visiting Kirtland Air Force Base and taking the time. And even 
though Congressman Heinrich lives there, he also takes an 
opportunity to come out and visit us. So those are the kinds of 
things that we are, as my colleagues say, inculcating from 
weapons storage, weapons movement, weapons maintenance, weapons 
locations, kind, and tracking.
    Mr. Langevin. Can you talk about how we maintain 
operational security so that when nuclear weapons are moving 
only those who need to know do know?
    General Thomas. Well, security safety resource protection 
is kind of several layers. I am involved in just the security 
requirement, required security in the event that we do move a 
weapon. That is the only time I really get involved. I am 
involved in security systems inside the weapons storage areas 
from a perspective that the right amount of security guarantee 
that weapon.
    But normally I don't get involved in day-to-day security 
that surrounds the external part of a weapons storage area or a 
launch facility or a flight line. I would be happy to take that 
question and get some help from our colleagues and security 
professionals on who watches the day-to-day security.
    Mr. Langevin. I would appreciate that, for the committee.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Langevin. Recognizing, then, that we are in open 
session, can you talk about how much progress was made in 
leveraging technology to assist personnel in executing 
inventory control, for example, bar codes or something 
analogous?
    General Thomas. Mr. Chairman, I would be happy to answer 
that.
    Prior to standing up the Air Force Nuclear Weapons Center 
robust and along with our partners in Air Force Global 
Logistics Support Center, we were failing in what I call 
automatic tracking systems and applied to what we have now 
defined as nuclear weapons-related material.
    Every component now that comes to the Air Force either is 
coming from industry or we are bringing it back, for instance, 
taking it off, for example, an assembled Intercontinental 
Ballistic Missile or off an aircraft now is bar coded with what 
we call a unique identifier. That unique identifier is then 
loaded into our supply system, either in the Defense Logistics 
Agency supply IT or into a separate entity for the United 
States Air Force as we begin what we call our positive 
inventory control, fusion that will eventually lead into our 
expeditionary combat supply system.
    From that, we can track through that IT fusion at the Air 
Force Global Logistics Support Center or at the Air Force 
Nuclear Weapons Center exactly the kind, condition, location of 
every nuclear weapon-related material component that moves 
through the system. Prior to that, we didn't have this, and 
this is still coming to us. We are improving on it on a daily 
basis.
    Mr. Langevin. Thank you, General.
    With that, I will now turn to the ranking member for 
questions. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Once again, I want to thank each of you, because you have 
taken on a task where there were a number of problems. You had 
to do an assessment, you have to try to respond to the 
criticism, and you have to bring your own ingenuity and insight 
to what needs to be done.
    One of the things that, whenever we look at an issue where 
there has been a gap in performance, recognizing that is always 
an important first step--and I appreciate that each of you have 
said that it is the Air Force's responsibility and your 
interest in fixing it--but we know that the Air Force is part 
of overall DOD. And the things that were occurring in the Air 
Force could not have occurred in the Air Force without also a 
lack of focus also from the Department of Defense.
    In order for you to fix it, you need that overall support 
from DOD. And I know you have a number of accomplishments that 
you put on the board of changes that you have made and you have 
given us the answer that the Air Force is committed. But what I 
want to ask you, the question is, are you getting the support 
from DOD that you need? Is it recognized that this is an 
important task within the Air Force and needs to be honored as 
such, just as you then try to honor those who are working 
within the Air Force in this area. It needs to have that level 
of recognition in DOD. Do you feel you are getting that 
support?
    We will start with you, General.
    General Alston. Congressman Turner, I have a good component 
of my day or my week engaged in the interagency process, 
principally inside the Department of Defense, interfacing with 
the Nuclear Weapons Council and the subordinate organizations 
that feed the Nuclear Weapons Council. I have a continual 
relationship with the Defense Threat Reduction Agency [DTRA], 
which is a very important partner in supporting our efforts, as 
well as the department wide.
    We also have a regular communication with the Department of 
Energy [DOE] and the National Nuclear Security Administration 
[NNSA] principally.
    The Air Force, about 2 years ago, it was the spring of 
2008, we had left a job vacant at the National Nuclear Security 
Administration. We had not competed a flag officer to fulfill 
the job there.
    The Air Force recognized that this, too, could contribute 
to our improved performance, and we decisively put a general 
officer into that job, and we have continuously manned that 
position since.
    So I am in a pretty good position to give you a feel for 
how those relationships are going. The Department of Defense 
provided a great deal of oversight, as the Air Force was 
beginning to be informed by what is now totaling about 13 
different internal and external reviews, and so AT&L 
[Acquisition, Technology and Logistics] was the principal 
interface with the Air Force. They also are the architecture to 
support the Nuclear Weapons Council, so it makes sense that 
that is where the interface would be.
    But we had good recognition of the work that we were doing. 
We were given the kind of breathing room that I think we needed 
in order to march out decisively as we did. So, as much as I 
was doing my best to keep them informed, they did not interfere 
and, in fact, were supportive of the efforts that we had 
brought under way.
    They helped craft definitions for something new called 
nuclear weapons-related material. In the aftermath of the 
challenge that we had with the misshipment of those sensitive 
missile parts, there was a whole category of materiel that 
really needed to be defined with some degree of precision for 
us to do, to get our arms around it and to put into place the 
tracking mechanisms that are required to do that job. So it has 
been a partnership when it came to those things as well.
    The Defense Threat Reduction Agency, we have been very 
transparent. We have demanded transparency, and we depend on 
objectivity. DTRA has been very supportive of our inspection 
process. They have equities in our performance as well. The 
Combatant Commander, STRATCOM [United States Strategic 
Command], General Chilton, has equities. He has been having his 
folks monitor and accompany inspection teams.
    And I think that all of these things in aggregate do show a 
partnership that is helping us understand. There has been 
discovery that has gone on for us to fully understand the 
weaknesses that we had and the strengths so that we can 
propagate those as broadly as we need to across the enterprise 
in an accelerated fashion to adopt new and good ideas.
    So I would say in every dimension that this is certainly 
not a uniquely Air Force issue, the atrophy in focus on the 
nuclear enterprise. Dr. Schlesinger made that clear in both his 
first volume, and particularly in his second volume. But for 
the Air Force interfaces with those agencies that we need to 
partner on, I think that we have developed very robust 
relationships.
    And I would also include the United States Navy. I have 
benefited a great deal from my counterparts in the Navy. The 
Chief of Staff and the Chief of Naval Operations have, over the 
last--as General Schwartz and Admiral Roughead have worked 
together. This partnership is also bearing fruit that benefits 
both of our services.
    So I think there has been more outreach than an internal 
effort. We opened our arms, and we are very transparent in our 
efforts, and folks pitched in to help us every step along the 
way.
    Mr. Turner. General Klotz, would you like to add something?
    General Klotz. If I could add to that very comprehensive 
and thorough answer from General Alston, just let me just say 
in my mind there is no doubt that there is very strong, 
committed support from the level of the Secretary of Defense, 
Secretary of Defense Gates, both in his public statements, in 
his testimony before this and other committees, in his visit to 
Minot Air Force Base about a year ago where he addressed both 
the members of the bomb wing and the missile wing to stress the 
importance of their duties and responsibilities with respect to 
nuclear weapons, that we have very strong leadership from the 
top down through the Department of Defense to the Air Force.
    Like General Alston, I regularly interact with various 
offices within the Office of Secretary of Defense and with the 
Defense Threat Reduction Agency. They have been out to visit us 
at Barksdale Air Force Base, and I think the lines of 
communication are open and the support is both strong and 
palpable.
    The Air Force, too, senior leadership, has shown 
extraordinary interest and leadership in this particular field. 
The Secretary of the Air Force, Mike Donley, and our Chief of 
Staff, General Schwartz, have made this one of our top 
priorities within the Air Force.
    To give you an example of how they have walked the talk is, 
over the Christmas holidays, when they could have been just 
about anyplace else, our Chief of Staff, General Schwartz, was 
in Francis E. Warren Air Force Base, one of our missile bases. 
And the Chief Master Sergeant of the Air Force, Chief Roy, was 
at Minot Air Force Base visiting the bomb wing and the missile 
wing there. I will add that both of them almost got snowed in 
by blizzards when they were up there, but it made a tremendous 
signal of support from the leadership to those airmen who serve 
in both the bomb wings and the missile wings.
    It is important for people--if your boss takes your work 
seriously, then the individuals will take their work seriously. 
And our leadership in the Department of Defense and in the Air 
Force have made that known and sent a very strong signal of how 
important they think this particular mission is.
    Mr. Turner. General Thomas, our chairman asked the question 
of, do you know where all the nuclear weapons are? And you 
answered, ``The short answer is, yes.'' I am not going to 
challenge you on that answer, other than to perhaps add to it 
to say that the answer needs to include also, ``but we could do 
better.''
    When we were talking yesterday, the three different 
categories that you were looking at, of the improvement of core 
structure, chain of command, personnel, how do you enhance the 
personnel, their capabilities, and then the other side is 
infrastructure and, as the chairman referenced, the issue of 
technology.
    As you know, having no record that a weapon has been moved 
doesn't necessarily mean that it is where it is supposed to be. 
And I know you make an effort to make certain that things are 
where they are supposed to be. But, nonetheless, technology is 
an issue that both provides you a problem with the security 
that you have to be putting forward and also provides an 
opportunity to help lessen the risk.
    So I do hope that as you look to your to-do list it 
continues to include the need for ``we can do better.'' For 
although I know the answer is yes, I know that there is still 
an opportunity to know more, and more accurately, where all of 
our items and nuclear weapons might be.
    Shifting then to--having said that, shifting then to the 
issue of culture: one of the criticisms had been that the 
people who were performing these duties may not have valued it, 
or received the support illustrating its value. I would like 
you to speak about that for a moment.
    The importance, obviously, of you have no margin of error. 
The security to our country, the weapons, represent a risk to 
us. Also, the importance of our nuclear deterrent and what it 
means for the overall national security.
    But culture remains an issue. Especially, you have the 
administration talking about the issue of wanting to eliminate 
nuclear weapons from the face of the Earth.
    We have to still be able to instill in the people that are 
doing it the importance that they are actually keeping our 
country very safe.
    Could you speak to that for a moment?
    General Thomas. Yes, sir, Congressman Turner.
    First, thank you, we can do better. I will make sure that I 
start to say that more often. We can do better with the ability 
to track all of our nuclear weapons-related material.
    Regarding the culture, I am the product of about 30 years 
of being in the Air Force and being in the nuclear enterprise 
business. And during those 30 years I have seen that we have 
withdrawn weapons from active duty. And in that steadfast time 
what I have always had, as General Klotz so brilliantly stated, 
is the senior level of leadership awareness.
    While we have documented that there has been almost a 
decade and a half of us not communicating the importance, the 
culture started to wane and the question of the youngest airmen 
was, if there is no leadership involved, then why am I doing 
that?
    We have started to turn the corner on that by not only 
getting the resources--resources meaning funding and personnel; 
our Secretary and our Chief have been very support active in 
giving us the things that we need--but, also, starting to take 
care of the issues that we have neglected over that decade and 
a half. For instance, nuclear support equipment. It is critical 
to have it operational in order for us to give our warfighter 
an operational weapon.
    We bought nuclear support equipment in 1965. We made some 
attempts in the early 1990s to upgrade that, but we failed 
because of the nuclear certification requirement. Today, the 
youngest airman out there knows, as a point of fact, because 
our senior leadership has been there to tell them, our senior 
leadership has added more personnel to their unit, and our 
senior leadership has provided the money to get newer support 
equipment, or at least in the interim, while we do the 
acquisition process correctly, to fund the broken items on 
those assets.
    So the culture starts with the senior leadership on the 
ground, where the youngest airman is, explaining the importance 
of the mission, applying the resources necessary, so we can 
overcome what I determined last year was potentially a culture 
of resignation at the youngest person's level, because they 
didn't see the senior leadership out talking about it. They 
didn't see more personnel coming for the mission. They didn't 
see funding to upgrade this warhead equipment by bringing in 
the newest technology, as you both acknowledged. So that is 
where we begin the foundation of restoring a culture of 
excellence, a culture of preciseness, a culture of ``we are 
going to be in this mission for a long time.'' So, Congressman 
Turner, that is the beginning of it.
    But from the information technology and other technologies, 
as part of our nuclear roadmap, those are the things that we 
are integrating. As General Alston said, we started the first 
nuclear roadmap with the ICBM delivery system that we have 
undergone since about 2001. As a part of that, you have to do 
the entire systems assistance.
    Do we have the people to operate it? Do we have the 
training that goes along with that before that person intends 
to operate it? Do we have the tech data that goes along before 
the person goes through the training?
    So all of those are part and parcel to us changing the 
culture.
    Mr. Turner. Thank you, General. Thank you, Mr. Chairman.
    Mr. Langevin. I thank the ranking member.
    With that, Mr. Lamborn is recognized for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this hearing and thank you all for your service and for your 
being here today.
    I find your testimony reassuring that we are taking this 
vital mission and making it even better, making it even more 
excellent. So thank you for all that.
    My question is closely related to your testimony and has to 
do with the warheads themselves. I am concerned about two 
things. One is the warheads are made of an inherently unstable 
material--radioactive materials--and they are going to 
degenerate over time. Now, we all know that.
    Secondly, I know that today we have more capability of 
building in security features that would make--should, God 
forbid, anyone unauthorized or a terrorist or whoever get their 
hands on one of our weapons, they would be--it would be 
impossible for them to detonate it with the kind of security 
features that we are capable of implementing today.
    Are we doing enough to make sure that these--monitoring of 
the radioactive portion of the warheads and the security 
features are being either retrofitted or added into, as we go? 
I mean, I know it is a little different than your testimony 
today, but that is a concern that I have. And I just want to 
make sure that we are doing everything that we can to make 
progress in these important areas.
    General Alston. I would like to probably turn this over to 
General Thomas in a minute, because he is the nuclear weapons 
wizard at the table.
    But I would first comment, though, that General Chilton and 
other senior national leaders are on record on how important it 
is for us to provide attention to the national stockpile. The 
Air Force, the credibility of our deterrent systems depends on 
all of the parts of those systems and the weapons being a 
principal part of that system.
    We do have challenges. Our partnership with the Department 
of Energy, this is not exclusively a resourcing issue for the 
NNSA and the Department of Energy. The Air Force has 
significant amounts of investments that are also required in 
partnership with DOE, depending on whose responsibility it is 
for the weapon. But we do have challenges in the Department of 
Energy infrastructure. The stockpile is aging, and I think that 
is pretty well documented that attention needs to go into that.
    But, at the end of the day, it is the credibility of these 
systems that would be at stake, despite the great Stockpile 
Stewardship Program that has done such a magnificent job to 
date to help us calibrate just how safe, secure, and reliable 
that stockpile is.
    General Klotz.
    General Klotz. Congressman Lamborn, thank you for letting 
General Thomas give the expert answer.
    From the operator's point of view, I accept the premise of 
your question, which is that these weapons are inanimate 
objects, yet made up of many different components that age with 
the passage of time.
    I think we have, through the Department of Energy, working 
with General Thomas and the Nuclear Weapons Center, good, solid 
plans and programs for making sure that the systems are 
sustained over time through a series of life extension 
programs, but there are challenges.
    As General Alston pointed out, there are challenges to the 
Department of Energy in terms of an aging infrastructure. Many 
of the facilities which they operate out of were built during 
the Manhattan Project in the Second World War, and those are 
the same facilities that they have now in various states of 
repair. They find it difficult, under those kinds of 
circumstances, to recruit the best and brightest graduating 
from engineering and science schools across the country.
    So there is much attention, I think, that needs to be paid 
to our principal provider, the Department of Energy, in terms 
of being able to continue to sustain these weapons for as long 
as they are part of the operational inventory or part of the 
reserve inventory.
    The other point, though, is, as we conduct these life 
extension programs, there is the opportunity to, without 
changing the military capability--in other words, not creating 
a new military capability--to design in and to put in 
additional safety and security features into the existing 
weapons. And as an operational commander that has 
responsibility for those as they are deployed out in the field, 
I would hope as a Nation, as a Department of Defense, as a 
Department of Energy, would be given the permission and have 
the opportunity to trade space, as it were, to take advantage 
of those opportunities as we go through life extension programs 
to design in those types of features.
    General Thomas. It is my privilege to answer that question 
for you.
    In my oral, I talked about my partnerships. I am pleased to 
report to the committee that I am in partnership with George 
Miller up at Lawrence Livermore National Laboratory, Tom Hunter 
up at Sandia National Laboratory, and Michael Anastasio at the 
Los Alamos National Lab. We are in frequent contact on the 
subject of the state of health of all nuclear weapons. Through 
DOE's continued surveillance, I am repeatedly and frequently 
updated on the status of every weapon in the Air Force 
inventory.
    You are right. We can do better. We can upgrade from the 
early 1950s, 1960s, 1970s technologies, security systems and 
surety that we put into every weapon. In working with these 
three labs and working with now a Chief and a Secretary, a 
warfighter, and the headquarters of Air Force, understanding 
that we can do better, I think you will start to see us 
articulate more of rendering safety features where a weapon 
that can render itself useless as a weapon as we move down to 
protect us from the threat of terrorism, someone actually 
captures one of our weapons. So I am pleased to report that we 
are involved in those on a frequent basis.
    Mr. Langevin. Mr. Lamborn, thank you. Mr. Fleming is now 
recognized.
    Dr. Fleming. Thank you, Mr. Chairman, and thank you, 
gentlemen. It is always great to see you again. Barksdale Air 
Force Base being in my district, it is of vital importance to 
hear your testimony today.
    Just one comment before I get to my first question. General 
Alston, paraphrasing you, you said that the airmen didn't fail 
the system; the system failed the airmen, and I entirely agree 
with that.
    I come from a medical background, obviously, and dealing 
with hospital issues and mistakes, the unthinkable things such 
as amputating the wrong leg, we have to deal with these issues.
    We use things like total quality management concepts that 
involve redundancy, accountability, the use of technology and 
certain leadership, and reading about this failure, the 
unauthorized transmission or the unauthorized transfer of 
nuclear weapons to Barksdale from Minot, and reading that 
summary, it is very interesting that, even though it was a very 
redundant system, it appeared that over time people had begun 
to ignore the checking of various statuses, that finally it 
wasn't until it reached Barksdale that somebody actually 
performed on their job and discovered the weapon. So the system 
worked in a way, but, obviously, we would much rather catch 
problems much earlier. But I think a refocus on that is 
certainly the right thing to do, and I appreciate the fact that 
we are doing that.
    I would like to focus on the weapons storage area [WSA] at 
Barksdale. You know, we have worked on this in the past months. 
We even have appropriated $77 million for the project.
    I want to pull a quote out regarding this discussion in the 
Schlesinger report and others, and it is the following: The 
closure of the weapons storage area at Barksdale was a--because 
we did have one in the past, you know, back from the SAC 
[Strategic Air Command] days. The closure of the weapons 
storage area at Barksdale was a significant mistake with a 
negative operational impact. It created a requirement for 
bombers to train and exercise far from their home station, 
resulting in operational complications. Nuclear munitions 
training and proficiency were severely impacted, owing to the 
inability of training weapons to simulate the real thing. Only 
from a global nuclear deterrence perspective do the 
ramifications of this become clear.
    The Task Force strongly encourages the Air Force to revisit 
the WSA closure decision. That is to say that should we reopen 
the nuclear weapons storage area at Barksdale--and I think the 
decision was made to do so. We have appropriated the money, but 
I would like to hear kind of what the status is on that and are 
we going to follow through with that?
    General Alston. Yes, sir. You recount where we are very 
well. We recognize and fully understand Dr. Schlesinger's 
position on the closure of the Barksdale weapons storage area 
and, therefore, Air Force leadership made the decision to begin 
taking action to recertify the weapons storage area at 
Barksdale. And throughout the course of last spring and last 
summer and through the fall, we went through all of the 
appropriate steps that are required for us to begin that 
process, to include a site activation task force that went to 
Barksdale to survey the weapons storage area. We brought Sandia 
in because Sandia Labs has responsibility to validate what the 
security requirements would be in order to do that.
    Initially, I think we had a rough order of magnitude early 
figure of about $150 million that would be required to reopen 
the Barksdale weapons storage area. But we continued that 
process, and that has culminated at this point--just I think 
within the last few weeks, at Air Combat Command--that phase 
has culminated with their producing an end-to-end programming 
plan which is another part of the process.
    The proximity of the conclusion of this phase in our 
assessment of the weapons storage area and the next steps that 
have to be taken is now in proximity to the Nuclear Posture 
Review being published, and we are going to, now that we have 
got the plan in hand, we are going to be informed by the 
Nuclear Posture Review before we begin taking any additional 
actions with regard to the Barksdale weapons storage area. So 
that is the current state of play with that project.
    Dr. Fleming. All right, thank you.
    I have another question, and this is really a little 
unrelated to this, but I think I couldn't have a better panel 
in front of me to ask this question. And this relates to a 
discussion that we had in a hearing last week with Admiral 
Willard where we are seeing some vulnerability by our--and 
don't get nervous about this; I realize you are not Navy, okay? 
But it does impact the Air Force.
    But the aircraft carriers, there is some vulnerability from 
medium-range missiles from China, and our ability to project 
force around the world is impacted by that, and that opens the 
discussion again about the Next-Generation Bomber. That had 
been sort of set aside in a budgetary way over the last year or 
so, and I know that there are discussions to open that back up. 
It seems to me, since we don't have an immediate antidote for 
this problem, this vulnerability we have to our aircraft 
carriers, that we need to refocus on the Next-Generation 
Bombers. So I would like to ask the panel's view and 
perspective on that.
    General Alston. Sir, I can tell you, as you know, the 
Secretary of Defense back in April of last year directed the 
Air Force to take another look at that program to revalidate 
the requirements, to understand the technology better, and to 
relook at that and get back to him. That process has been part 
of the Quadrennial Defense Review. There has been a lot of work 
done on that in the Air Force and in partnership with the 
Department in order to validate those requirements and fulfill 
the requirements set out by the Secretary of Defense last 
April.
    So we have current penetrating platform capability in the 
B-2 and we have standoff capability with the B-52. At some 
point, the B-2 will not be as effective in emerging threat 
environments in the future. We do think that it is important to 
have that kind of capability and, therefore, as we make our 
risk calculus, that has to be all part of the equation. Now, I 
don't know how debatable it is when the B-2 falls into that 
category of less capable as a penetrating platform, but I 
believe it is into the next decade that we would have that 
capacity.
    So I think we recognize the threat as you articulate the 
threat and the challenges ahead of us, and I think that that 
will be spoken to in the Quadrennial Defense Review and the 
upcoming budget cycle.
    Dr. Fleming. Okay. Anyone else?
    General Klotz. I would like to add to that. I think General 
Alston has it right. There will be a lot of discussion on this 
after 1 February when the Quadrennial Defense Review gets 
delivered and key senior leaders from the Department of Defense 
and the Department of the Air Force come over here for the 
posture hearings. I think this will be an item that will be 
directly addressed by that.
    Let me just say something about our current bomber force, 
though. Our sense at Air Force Global Strike Command is that 
these weapons systems continue to make a major contribution to 
both the strategic nuclear deterrence as well as conventional 
operations.
    B-52 provides that standoff capability with the Air-
Launched Cruise Missile that General Alston mentioned and, of 
course, the B-2 has the ability to penetrate more heavily 
defended targets. So synergistically, they contribute 
capabilities, both of which we think are important.
    They also play a major conventional role which should never 
be overlooked. They played a key role during Operations 
Enduring Freedom and Operations Iraqi Freedom in the early 
stages of the war; the B-2 with that ability to penetrate 
through heavily defended airspace, and the B-52 with its 
ability to carry large amounts of armaments, and with the 
developments in munitions to drop those armaments from 35,000 
feet to within meters of their targets, which was an awesome, 
and, I think in particular engagements, a decisive capability.
    So I am fairly optimistic about the contribution that both 
of those platforms will continue to play for many, many years 
to come as an integral part of any air campaign planning that 
is done by a combatant commander.
    We need to continue to sustain and upgrade both the B-52 
and B-2 to make sure that, for instance, we can take advantage 
of new communication technologies. Later this year, the Air 
Force will launch the Advanced Extremely High Frequency 
Satellite and we will need to make sure that both the B-2 and 
the B-52 can make full use of that new communications mode. 
There are advances in radar technology which have been 
introduced into other aircraft, which I would submit would make 
a major contribution to the capabilities of both of those 
platforms.
    But without getting into any operational planning details, 
which we are enjoined from doing, they continue to have and 
continue to make, can make, an important contribution to 
combatant commanders as they do air campaign planning.
    Dr. Fleming. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Langevin. Mr. Owens is now recognized for 5 minutes.
    Mr. Owens. Thank you. I am sorry I was a bit late getting 
here.
    Having visited a few WSAs in my time in the Air Force, I do 
have a visual in my head. It appears to me from the reading 
that I did, that this was a human error scenario in both of 
these cases. I think the conclusions that were reached by the 
investigating officers were that the procedures were in place 
and that it was, again, human error that caused these problems.
    The question that I really have is what have the steps 
been, or what steps have been taken to ensure that this doesn't 
occur again? I do recall reading about the story in North 
Dakota, and obviously you took some rapid steps relative to the 
commander out there. But what is the process that you went 
through to ensure that we have the safety of the weapons in 
hand?
    General Alston. Well, sir, of course, immediately in the 
aftermath, there was a comprehensive assessment of the quality 
of the training, the inspection process and the quality of the 
inspection processes that we had. There was a very thorough 
treatment of the current procedures that were in place and 
there were revisions to those procedures.
    The nuclear business is a system of checks and rechecks and 
balances, but over all of that needs to be a culture that is 
self-critical and that the safeguards that are in place are, in 
fact, effective.
    So on the ground at Minot on how a maintenance team and a 
munitions team would go and open and enter a weapons storage 
area and identify the weapon that needs to move, pull it out, 
bring it to the flight line and load it up on a B-52, there is 
fantastic scrutiny on how to perform that procedure. Early on, 
I am sure there were wing commanders that were validating 
whether or not every step was being performed. But there has 
been great leadership intervention in order to ensure that.
    We have to depend on our processes, but our people at the 
end of the day are what are going to sustain us, and our 
culture is going to be the kind of--the atmospherics and the 
environment under which these folks are going to perform.
    The people are the long pole in our tent right now in terms 
of having that self-sustaining culture and the proficiency 
levels we need. Our bench strength isn't what we used to be. 
Our depth isn't what it used to be. We made personnel decisions 
in the early nineties that have created an enlisted bathtub in 
the 15- to 17-year range for all of our AFSCs [Air Force 
Specialty Codes], and we have done close scrutiny of all of our 
nuclear-related Air Force Specialty Codes. So, consequently, in 
the field today, if you do not have the tech sergeant at the 
15-year point of experience that you otherwise would depend on, 
you are going to cover that with a junior person or a senior 
person, and neither one of those is optimized.
    So we have begun work at the direction of the Secretary, 
and you can trace this into Admiral Child's Defense Science 
Board report on the erosion of nuclear deterrent skills, that 
we have a comprehensive human capital strategy that is in its 
early stages to make sure that we are going to deliver the 
right people in the right place at the right time.
    But, really, leadership focus was a missing ingredient 
under the conditions that we were operating before. The 
leadership focus from the Chief and the Secretary has been 
consistently--I mean, it is echoed from the top to the bottom 
on a daily basis. But we do need to strengthen that, and that 
is going to take us more time in order to make sure. Our force 
structure is not so large anymore. We need to make sure that we 
deliberately deliver that kind of capability and that 
proficiency, every man and woman just making sure they are 
absolutely prepared to succeed.
    Mr. Owens. Just a follow-up question. In reading the 
materials that were provided, you have a series of, in some 
cases, multiple checks that were missed in these particular 
instances. Do you have an audit process that allows you to see 
up the chain of command if, for instance, one or more checks 
were missed, so that you can evaluate whether or not what you 
are doing now is taking hold?
    General Alston. The inspection process that is underway in 
the field today audits--when did you open the door, when did 
you close the door, how long should that procedure take? If you 
have to go in and you have to check every configuration in 
there, should that be a 5-minute procedure or should that be a 
45-minute procedure? So you get to audit that.
    We used to do samples. We still do sampling, but we do much 
larger sampling, and in some cases we do 100 percent audits of 
the paper trail that supports the procedures that we have put 
in place.
    So we have gone through a centralized training program for 
every one of our inspectors. They are certified by their major 
commands. This is new. We had not done this with our nuclear 
surety inspections prior to this time. So, common training, 
MAJCOM certification, a 100 percent oversight of all of our 
inspections.
    We provide additional oversight. So a major command goes 
out to inspect his operation and the Air Force inspection 
agency is part of that process for a full nuclear surety 
inspection. DTRA accompanies us on many inspections. STRATCOM 
accompanies us. So there is an awful lot of oversight and 
inspection prowess that is currently in evidence in the field 
today.
    But I think that we are depending on daily performance and 
the audits associated with inspection to ensure that we are, in 
fact, following through with the procedures and the processes 
that we have put in place.
    Mr. Owens. Thank you.
    General Klotz. Mr. Chairman, may I add to that? There are a 
lot of changes from when I first started walking around WSAs as 
well, sir, quite apart from the security which is very, very 
different from the technology which we use in the WSAs.
    But there is another significant change that we should 
point out--and General Thomas would be the actual one to talk 
to the details of that. One of the changes we made post-Minot 
incident was to take all of our WSAs and place them not under 
the local wing commander's authority, but under the authority 
of the Air Force Nuclear Weapons Center at Kirtland Air Force 
Base.
    We talked earlier about how we draw good ideas from the 
Navy and vice versa. I think that is one of the good ideas we 
took from the Navy in the sense that they had had centralized 
managed control of their equivalents of weapon storage areas 
through a single contractor. So to a certain extent, we bought 
into that same notion, only that the contractor here in this 
case is actually the Air Force Nuclear Weapons Center that does 
that.
    What that was intended to do was to ensure that we had 
standardization of procedures and processes and checklists 
within the weapons storage area, so that whether it was a bomb 
wing weapons storage area or a missile wing storage area or one 
of the weapon storage areas that belongs to General Thomas at 
the Nuclear Weapons Center, that you would see the same 
procedures, the same checklists, the same inventories and so 
on.
    Now, we are relatively new into this and we will be very 
closely looking at how well they do. There was just a nuclear 
surety inspection at Francis E. Warren Air Force Base in 
Wyoming in which the Inspector General from the Air Force 
Materiel Command was in looking at the WSA, and they passed 
that inspection. So that is another change, in addition to 
those that General Alston has mentioned, to deal with issues 
inside the weapons storage area.
    Mr. Owens. Thank you.
    General Thomas. Thank you, sir, for the question, and I 
would like to follow up a little bit. General Klotz and General 
Alston have done a great job explaining. But one of the things, 
with the Secretary and the Chief and General Hoffman's 
approval, the first thing we did was, as General Klotz said, 
you looked at the standardization at every weapons storage area 
to make sure it was correct. I am fairly certain in a day-to-
day oversight that we are not there yet, but we are getting 
there rapidly.
    The second thing we did was upgrade the leadership at each 
one. Previously, we had a young captain that was a flight 
commander that was responsible for the inner workings inside of 
the weapons storage areas as it had to do with weapons. So we 
moved that to a lieutenant colonel's position, who brings in a 
little bit more experience.
    The second thing we did was go back and look at the 
training that each person working inside the WSA had, local 
training. We have standardized the lesson plans and 
standardized everything. But we also went back to Sheppard Air 
Force Base to see what they were being taught. We found there 
was a deficiency there.
    Over the years we stopped the training that was there when 
we were young lieutenants that were going to go into the 
maintenance business. So we reinstituted that, robusted that 
up. At the Nuclear Weapons Center, we now look into that 
training because those trained personnel will go to those 
weapon storage areas.
    We partnered with the Defense Threat Reduction Agency and 
increased computer-based training at Sheppard Air Force Base 
and the ability to deploy that computer-based training out to 
our weapons storage areas.
    Additionally to that, we did an assessment. We will be 
moving, as others have alluded, to get better technology for 
portal monitoring at the gate. Something passes with a 
radiation signature, we will know; and we will then be able to 
compare whether it should be moving.
    On a daily basis, we have experts at the Air Force Nuclear 
Weapons Center that go into the defense integration and 
automated management of nuclear data services to see exactly 
what maintenance was done on each weapon and whether that was 
the right type of maintenance and whether we fulfilled all of 
the squares of the paperwork that was required.
    The other thing that our Chief of Staff, after visiting 
Barksdale, encouraged us to do was get an automated process for 
the 504 procedure, which is actually where you transfer 
weapons, where we can go back in and do that robust auditing of 
exactly where did it transfer, at what point, who transferred 
it, to include the maintenance of it.
    So we made leaps and bounds on that. But it started with 
getting the right senior people in with the right training. So 
our Chief and our Secretary has just helped us tremendously in 
making sure that we do this correctly.
    Mr. Owens. Thank you. I yield back.
    Mr. Langevin. Thank you.
    Just a final question, switching gears for a second if I 
could. General Klotz, how will you coordinate with Air Combat 
Command to sustain the readiness of the B-52 and B-2 fleet? 
With all nuclear-capable bombers now under Global Strike 
Command, how are you managing the competing demands placed on 
the bomber fleet to support conventional missions and training 
requirements?
    General Klotz. Thank you, Mr. Chairman, that is an 
excellent question and, in fact, one of the principal issues 
that we have been working very closely on with Air Combat 
Command. In fact, as we work through this mission transfer 
process, we have been holding weekly meetings at the working 
group level and then every other week at the two-star level, 
video-teleconference. And just last week General Fraser, who is 
the commander of Air Combat Command, came to Barksdale Air 
Force Base and we did a final readiness review to make sure we 
were ready to make this transfer.
    I hasten to add that after the transfer is made, that does 
not mean that we never talk to Air Combat Command or Air Combat 
Command never talks to Air Force Global Strike Command. We are 
still going to be working very closely together as Global 
Strike Command achieves its full operational capability later 
this summer.
    But even beyond that, Air Combat Command plays a unique 
role within the Air Force. It is the lead for what we call the 
Combat Air Forces, the CAF. As such, they are the lead major 
command not just for developing tactics and exercises and 
deploying forces for Air Combat Command, but for the other 
commands that operate strike aircraft, such as the Pacific Air 
Forces and U.S. Air Forces in Europe, and now Global Strike 
Command. Air Force Space Command is also an important part of 
that process.
    So they will continue under memoranda of agreement and 
memoranda of understanding and under a program plan that the 
Chief of Staff signed to be the lead on scheduling exercises, 
such as at Red Flag, and integrating forces, including Global 
Strike Command bombers, into those types of exercises; and in 
serving as the principal interface between the Air Force and 
Joint Forces Command, which has responsibility for presenting 
all forces based in the Continental United States to overseas 
regional commanders.
    We also have people at Air Combat Command headquarters, 
will have and continue to have people there, Combat Command 
headquarters, under a detachment there, who wear an Air Force 
Global Strike Command patch on their uniform but actually sit 
at desks alongside their counterparts at Air Combat Command to 
make sure in the key areas that we are lashed up together.
    We will participate, as I said, in exercises like Red Flag 
and the other flag series of exercises. There is a process 
known as weapons and tactical conferences, WEPTAC, which we 
hold. In fact, I was just out at Nellis Air Force Base last 
week with General Fraser of Air Combat Command and General 
Kehler of Air Force Space Command, where members of our three 
respective commands were working down to the level of actual 
operational tactics and integrating forces across the entire 
range of capabilities that the Air Force can bring to bear.
    So we will be working very, very, closely with them in 
terms of organizing, training and equipping the bomber force 
for, as I said before, its awesome and in some cases 
potentially decisive capabilities that it brings to the fight 
and one that is valued highly by regional combatant commanders 
across the globe.
    Mr. Langevin. How well do all the airmen in both Global 
Strike and Air Combat Command understand the rationale for the 
division of bomber platforms within each major command? Are 
there any conflicting command and control issues that you 
discovered or other issues that have created any adverse 
effects in successful mission execution?
    General Klotz. Again, an excellent question. And to put 
this in context, the Air Force made a conscious decision to 
leave the B-1B bomber out of Global Strike Command. I think the 
simplest reason for that is the B-1B has been re-roled as a 
conventional-only bomber. That is a position that we have taken 
within the Air Force in terms of sustainment modernization. It 
is also a position we have taken internationally, particularly 
in our discussions with the Russians as part of the START 
[Strategic Arms Reduction Treaty] and Moscow Treaty 
consultations that have continued since those treaties went 
into effect.
    Now, having said that, you know, the B-1 and the B-2 and 
the B-52 are bombers, multi-engine, large aircraft, and there 
are skill sets that are applicable to all three bombers. In 
fact on my staff, both at the senior level and at the action 
officer level, there are pilots and navigators and electronic 
warfare officers who have flown in two or more of those weapon 
platforms.
    So I would see, and in my discussions with General Fraser, 
we agree on this point, that there will continue to be a cross-
flow between platforms. In other words, you might fly the B-52 
for a tour and then transition into the B-1, or vice-versa.
    Additionally, another thing General Fraser and I agreed on: 
we are going to bring back competition, annual or biannual 
competition, as a means of promoting excellence and esprit and 
pride in what we do. And as part of that combination, we intend 
to invite the B-1s, even though they are not part of Air Force 
Global Strike Command, to participate and compete in those 
competitions.
    Mr. Langevin. Very good. I will have some further questions 
for the record.
    With that, let me turn to the Ranking Member for any other 
questions.
    Mr. Owens.
    Mr. Owens. I have no questions.
    Mr. Langevin. Mr. Fleming.
    Dr. Fleming. I would like to ask one.
    General Alston, just a follow-up to my question about the 
weapons storage area in Barksdale and the Quadrennial Review, 
and I understand all that. What would be the scenario where we 
wouldn't move forward with reestablishing the nuclear weapons 
storage area at Barksdale?
    General Alston. Sir, our way forward is, as we are informed 
by the Nuclear Posture Review--and we have a new major command 
commander taking responsibility for the bomber mission, and we 
have reached this point in the process where we have to 
reengage senior Air Force leadership--I think that we are going 
to benefit from that collaboration to make sure that we are 
doing the right thing for the nuclear mission. So, I think the 
Secretary and the Chief would expect nothing less than for us 
to bring together all of the required players to ensure that 
they are able to make the very best decision and pace the 
project and otherwise make sure we are doing the right thing 
for the nuclear mission.
    Dr. Fleming. Okay. Thank you, sir.
    Mr. Langevin. Just under the wire, Mr. Heinrich is 
recognized for 5 minutes.
    Mr. Heinrich. Thank you, Mr. Chairman. I apologize. I was 
on the floor. I have got a couple questions, actually.
    Mr. Langevin. I don't think your microphone is pushed on.
    Mr. Heinrich. I apologize. First, just let me congratulate 
you on the initial operations capability of the Air Force's 
Nuclear Weapons Center Sustainment and Integration Center back 
in November. Thinking long term, I wanted to ask, if fully 
funded, when would you foresee the final operations capability 
being achieved and how will that benefit the overall Air Force 
nuclear weapons enterprise?
    General Thomas. Thank you, Congressman Heinrich. Fully 
funding is certainly a part of the equation to become full 
operational capability. But another part is sufficient manning, 
which we have gotten the resources now and we are hiring. By 1 
February we think we should have hired all shifts to go there. 
The second portion would be facility, as you have traveled to 
see.
    Our MAJCOM commander, General Hoffman, has made a facility 
for the Sustainment and Integration Center his number one 
MILCON to the tune of about $49 million. But the other part 
goes, I think, to what the other members of the committee have 
asked about. It is the information technology and our ability 
to wed that into that facility that gives us instant 
visibility, 24/7, 365. Once we move forward continually in what 
we call our phasing of information technology with regard to 
positive inventory control, we will be able to say 100 percent 
or fully operational capability. That will be the only piece 
that will hold us.
    But, you know, in the Air Force, we don't wait for 100 
percent. Once we get to about 75 or 80 percent, where we have 
visibility through tracking and the other mechanisms being able 
to have a partnership with Air Force Global Logistics Support 
Center, we will declare full operational capability. We are 
going to declare that before we get the new facility, because 
at Kirtland Air Force Base, among the 100 or so mission 
partners, we have had mission partners move out of space to 
give us space. So we will declare that, but will still start 
working toward a facility through MILCON.
    Mr. Heinrich. Thank you, General.
    In September of 2008, I think it was, the Secretary of 
Defense's Task Force on DOD Nuclear Weapons Management outlined 
the need to establish the Nuclear Weapons Management 
Fundamentals Course at the Nuclear Weapons Center. According to 
your written testimony, or your submitted testimony, one of the 
most significant challenges that lies ahead--and you have 
raised this directly with me--is your most important asset, 
your people, and rebuilding that asset.
    What is the status of the aforementioned course and how has 
it better prepared your airmen for certification and command?
    General Thomas. Thank you again, Congressman Heinrich. The 
status, it is full operational capability. We have run about 13 
courses, to the tune of about 300 people that were going 
through. Upon initially establishing that, our biggest customer 
at the time was General Kehler out of Air Force Space Command 
who thought he needed rapidly to get some of his commanders, 
newly in command, through the course so we could talk about it.
    When we did that, we recognized that we couldn't send 
everybody through basic training again, nor could we wait until 
they went through professional military education. So we 
established this week-long course where we hit upon everything 
from why we have the weapons, why we exist as the United States 
Air Force, to the challenges, the priorities, to better 
inculcate the culture of nuclear fundamentals for strategic 
deterrence. But I think we have kind of hit that really hard 
and the 299 or so that have gone through have critiqued us very 
hard, and with each course it gets better.
    Mr. Heinrich. Great. The last question. You mentioned 
mission partners a few minutes ago, and I want to broaden that 
a little bit and just ask you about the level of collaboration 
with Sandia and the other national labs, our universities, et 
cetera, even Guard and Reserve components, to support the 
mission that you do.
    General Thomas. Thank you again, Congressman. Our 
partnerships, as you well articulated there, include Lawrence 
Livermore National Lab, Sandia National Lab and Los Alamos 
National Lab. In our frequent conversations with each lab, they 
recognize that they could contribute more if they assigned 
personnel to the Air Force Nuclear Weapons Center. I am proud 
to report that each lab has, on their own, provided a weapons 
expert inside our facility and my commander's headquarters, a 
weapons expert for each of the labs.
    Second, the University of New Mexico, which we are pleased 
to be aligned with, has come on very hard in helping us with 
stay-in-school students, particularly those in graduate school, 
that we kind of get to take their transcripts and their resumes 
to see what talent they could bring to us. So the University of 
New Mexico, New Mexico State University, New Mexico Tech, all 
have come to us and are providing us students so we can 
continue to grow the talent that we are going to need. And that 
talent, as you know, may not stay with the Air Force but it may 
go to any of the national labs or to industry that is into this 
business.
    The third thing we have done is we have gone out to 
industry right there in Albuquerque. As you know, we have some 
very technologically-inclined industry there, and they are 
starting to support us too; some through existing contracts, 
but most know that the contracts now are going into insourcing 
and to hire them as government. But they have come to us with 
some of their employees that they may potentially lay off and 
say, `Hey, this is a good candidate.' So that effort is working 
with us very well.
    Mentioning our partners there at Kirtland Air Force Base, 
the Air Force Research Laboratory is integrated into everything 
we are doing in trying to get us the newest technology--so much 
so that their chief executive officer for technology has been 
on loan to us. The Air Force Operational Test Evaluation 
Center, led by Major General Sargeant, is involved with helping 
us with our center test authority, and Defense Threat Reduction 
Agency is involved with helping us with our nuclear 
fundamentals course. The Air Force Inspection Agency lends 
people to us when we talk about inspecting to a higher 
standard, consistency of standards. So it has just been a total 
partnership at Kirtland Air Force Base and throughout the Air 
Force.
    Mr. Heinrich. Thank you. I yield back.
    Mr. Langevin. I thank the gentleman.
    With that, let me conclude by thanking our witnesses for 
their testimony today. We take very seriously on this committee 
the issue of securing our nuclear enterprise. I know that you 
share that commitment. I appreciate your testimony and the 
progress that has been made. We will continue to exercise 
robust oversight over this issue and look forward to working 
with you in your various roles.
    With that, I want to thank you all for your service to our 
country and all you do to keep America strong and keep us safe.
    I want to thank the members for their attendance today. 
Members will have a week to submit additional questions for the 
record, and I would ask our witnesses to respond expeditiously 
in writing.
    With that, given this was our first hearing of the 
Strategic Forces Subcommittee under my chairmanship, I would be 
remiss if I didn't publicly acknowledge and thank the great 
work of my predecessor, Congresswoman Ellen Tauscher, now Under 
Secretary for Arms Control and International Security, and 
appreciate the great work she did in leading this subcommittee 
and her continued service to our Nation.
    With that, this hearing stands adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            January 21, 2010

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 21, 2010

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 21, 2010

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    General Thomas. We maintain very strict Operational Security (or 
OPSEC) to ensure only those with a need to know are involved in weapons 
movements. This is spelled out to us in DOD Nuclear Weapons Security 
Manual (DODM S-5210-41-M) and the Air Force Nuclear Weapons Security 
Manual (AFM 31-108): ``At a minimum, all information that would reveal 
a movement is planned or scheduled shall be classified Confidential.'' 
``Information concerning times, routes, and destinations shall be 
handled on a strict need-to-know basis and controlled as appropriate. 
Dissemination, display, and access to information concerning impending 
or actual movements shall be limited to the minimum essential personnel 
to support the mission.''
    As the Air Force Service Logistics Agent for all nuclear weapons 
related movements, the 708th Nuclear Sustainment Squadron (a unit under 
the 498 Nuclear Systems Wing and the Air Force Nuclear Weapons Center 
at Kirtland AFB), coordinates all movements with the National Nuclear 
Security Administration and/or Air Mobility Command. Mission planners 
accomplish all exchanges and mission requirements regarding weapons 
movements via secure (classified) communications, such as the Defense 
Integration and Management of Nuclear Data Services (DIAMONDS). Local 
mission planning meetings are also held in secure locations where 
information is handled and verified on a strict need-to-know basis and 
any compromise results in mission rescheduling.
    Movements on a local level, for example within the ICBM missile 
field or the Weapons Storage Area, are also planned, scheduled, and 
executed under a similar OPSEC umbrella. For instance, movements within 
the weapons storage area are coordinated face-to-face between munitions 
control and Air Force Global Strike Command (AFGSC) security forces. 
They are limited to only those personnel who have a need to know. 
Movements outside the weapons storage area are coordinated in a 
classified meeting in advance with the host wing. Configuration, 
location, routes, travel time and security requirements are discussed. 
The meeting includes munitions, missile maintenance, security forces, 
operations, wing leadership, explosive ordnance disposal technicians, 
wing safety and Office of Special Investigations (OSI) agents. Access 
to this meeting is limited only to those who are listed on an entry 
authority list and have a need to know. The host AFGSC wing signs for 
custody prior to departure and oversees all aspects of off-base 
movements. [See page 10.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 21, 2010

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. How is the Air Force measuring progress in its 
implementation of the Roadmap-identified corrective actions (i.e., when 
do you know you're successful)? How have Air Force changes and 
adjustments to the nuclear enterprise impacted mission performance?
    General Alston. We are using a composite set of indicators to 
measure our performance. In additon to tracking the progress of the 
initiatives laid out in the Roadmap entitled, ``Reinvigorating the Air 
Force Nuclear Enterprise,'' we are using a broad range of tools to 
enhance our understanding of the state of the nuclear enterprise--
inspections, staff assistance visits, exercises, mentors, resourcing 
levels, safety reports, surveys, to name a few. The standards for 
performance are clear, so as a snapshot in time, we have good insight--
making progress, more to be done. We believe we are setting the 
conditions for positive, long-term stewardship, and we are building on 
our current tools to improve the quality of that longer-term assessment 
process. The changes we are making need to continue to ensure that the 
Air Force consistently meets USSTRATCOM requirements and delivers 
effective strategic deterrence by performing safe, secure, precise, 
reliable operations at all our nuclear units, as we are doing today.
    Mr. Langevin. Are there any outstanding challenges or impediments 
to your ability to implement the corrective actions identified in the 
Roadmap?
    General Alston. No. With only 17 months since the publication of 
our comprehensive Roadmap, and with the magnitude of some of the key 
changes that have been implemented, we are early in a multi-year 
effort. Our priorities have been clearly established by the Secretary 
of the Air Force and the Chief of Staff: #1 - Continue to Strengthen 
the Nuclear Enterprise. Our challenges were created over a period of 
years and we will not get to where we want to be for a period of time. 
But we understand our challenges, have a plan to meet them head on, all 
the while performing safe, secure, reliable operations and contributing 
substantial deterrence value every day.
    Mr. Langevin. Who has responsibility for the programming, planning, 
budgeting and execution (PPBE) process for nuclear forces and 
capabilities within the Air Force? Should Congress expect to see 
additional resource requests to implement the Roadmap?
    General Alston. A8 (Strategic Plans and Programs) manages the 
programming, planning, budgeting and execution (PPBE) process for the 
USAF which includes AF nuclear forces and capabilities. Within A8, a 
Nuclear Deterrence Operations (NDO) panel was established before the 
FY11 POM that has specific responsibility for nuclear programming.
    The FY10 and FY11 budgets have increased investments in the AF 
nuclear enterprise which addressed Roadmap implementation issues. The 
AF will continue to strengthen excellence in the nuclear enterprise. 
All nuclear resource requirements will be thoroughly examined through 
the AF Corporate Structure to determine the correct balance of funding 
in relation to other AF missions.
    Mr. Langevin. The recent relief of two commanders at Minot with 
nuclear forces responsibilities was an indication that improvements to 
the Air Force nuclear enterprise still need to be made. What are the 
most pressing challenges that still must be addressed?
    General Alston. Though the relief of the commanders at Minot was 
extraordinary, holding leadership accountable is not. Commanders at all 
levels of leadership in the AF are focused on daily mission performance 
and have made it clear that performance matters. Having said that, we 
recognize that our prior shift in focus to other vital mission areas 
had a cost in the nuclear mission area and that this shift occurred 
over a period of years. The course we are on will require a 
considerable amount of time to achieve the persistent level of 
performance we are seeking. The key to our success in the future is the 
deliberate development of our people to ensure they are functionally 
proficient and grow into seasoned leaders. We have made significant 
changes in the areas of training, education, tracking nuclear 
experience, modifications to Professional Military Education curricula, 
expanding fellowship opportunities as means to address improving the 
deliberate development of our outstanding airmen. We are focused on 
ensuring our airmen are functional experts and seasoned leaders.
    Mr. Langevin. With the reorganization of nuclear focus and 
expertise in the Air Force, what organization(s) now have lead 
responsibility for Air Force nuclear requirements, nuclear-related 
acquisitions, nuclear force structure, and advocating for nuclear 
capabilities?
    General Alston. The newly created AFGSC is responsible for the 
organize, train and equip function of AF strategic forces (ICBM, B-2, 
B-52) while USAFE and ACC are responsible for organizing, training and 
equipping all dual-capable fighter aircraft. Nuclear capabilities 
advocates on the headquarters staff include but are not limited to AF/
A10, SAF/AQ, AF/A8PN, and AF/A5XC. Nuclear capabilities advocates from 
the MAJCOMs include but are not limited to AFGSC, USAFE, AFMC, AMC, 
ACC, and PACOM. And AF/A10 provides the key integration piece and 
collaborates with established Air Force acquisition and requirements 
process owners and has oversight to ensure uniformity of nuclear 
policy, guidance, requirements and advocacy across the HAF staff and 
throughout the broader nuclear enterprise.
    Mr. Langevin. There appear to be several Air Force-related nuclear 
forces issues requiring decisions and/or investments in the next few 
years, such as: the B-61 life extension program, a nuclear-capable Next 
Generation Bomber, dual-capable Joint Strike Fighter, and a potential 
ICBM follow-on. How will the improvements made to the Air Force Nuclear 
Enterprise assist in these decisions?
    General Alston. The re-organized Air Staff and MAJCOM structures 
are providing for institutional focus and coherent, consistent advocacy 
for nuclear capabilities. AF Global Strike Command, along with the 
other commands with nuclear responsibilities, establish nuclear 
requirements. The Air Staff, through the Assistant Chief of Staff for 
Strategic Deterrence and Nuclear Integration stewards the requirements 
into the AF requirements and resourcing structures and provides 
propency for these capabilities. The integrated result ensures these 
capabilities compete effectively for AF resources.
    Mr. Langevin. As the Air Force looks ahead, what are the key 
challenges to sustaining the nuclear-capable ICBM and bomber force? Are 
there any key decisions regarding these forces that will have to be 
made in the near- to mid-term?
    General Alston. Key challenges to sustaining the nuclear-capable 
ICBM and bomber force include: ensuring current capabilities are viable 
and credible, maintaining the ICBM industrial base and intellectual/
engineering capability supporting fleet modernization, and continuing 
legacy bomber sustainment/modernization activities.
    Key decisions being reviewed/evaluated by the Air Force in the 
near- to mid-term timeframe include making investments in the current 
ICBM system to maintain its viability/capability to 2030. Additionally, 
the Air Force is continuing to refine the requirements for developing a 
new long-range strike platform and developing requirements for a new 
nuclear-capable stand-off weapon system.
    Mr. Langevin. Please discuss Air Force efforts to sustain a nuclear 
career field, including identifying clear career paths, cultivating 
expertise, and identifying leadership opportunities for airmen to 
ascend in nuclear-related careers.
    General Alston. As part of a comprehensive strategy to ensure we 
have the right person in the right job at the right time and to improve 
our nuclear experience levels, we have a variety of initiatives 
underway.
    We identify and track nuclear experienced individuals by applying 
Special Experience Identifiers to their record. We have established key 
nuclear billets where we have well-defined requirements for specific 
nuclear expertise. We baselined all nuclear-related training and 
education and revised course content for all levels of AF Professional 
Military Education. We increased the number of fellowships aligned with 
the nuclear mission. Additionally, we are in the process of creating a 
Human Capital Development Strategy that leverages all these initiatives 
while ensuring our policies, processes and authorities properly align 
to ensure each airman associated with the AF nuclear enterprise is 
fully prepared to perform both technical duties and to carry out 
leadership responsibilities in this vital mission area.
    Mr. Langevin. Please discuss Air Force nuclear enterprise personnel 
requirements and how the Air Force is addressing those requirements.
    General Alston. The Deputy Chief of Staff, Manpower, Personnel and 
Services (AF/A1) and Assistant Chief of Staff, Strategic Deterrence and 
Nuclear Integration (AF/A10) are partnering to develop a nuclear-
focused Human Capital Strategy (HCS) to ensure nuclear mission success.
    A key element of the HCS is the systematic review of force 
development requirements across components of the Nuclear Enterprise. 
Over 2,500 nuclear billets were added as part of the stand-up of Air 
Force Global Strike Command, expansion of the AF Nuclear Weapons 
Center, the stand-up of HQ/USAF A10 and fortifying other organizations 
within the Air Force nuclear enterprise. We have already made changes 
to training, education, tracking nuclear experience, identifying key 
nuclear billets, and modified curricula at all levels of AF 
Professional Military Education. We are focused on ensuring our airmen 
are functional experts and seasoned leaders.
    Mr. Langevin. The Navy has a 30-year shipbuilding plan and a long-
term SSBN plan. Does the Air Force have a long-term plan for the 
sustainment of its nuclear deterrence capabilities?
    General Alston. The Air Force has sustainment plans for all of its 
nuclear missions: dual-capable aircraft, land-based ICBMs, stand-off 
missiles and the platforms to deliver gravity and stand-off weapons.
    In the near-term the Air Force plans to sustain extended deterrence 
capabilities by recapitalizing the dual-capable aircraft fleet. In the 
mid-term the Air Force has developed a plan to field a new airborne 
Long Range Strike capability, stand-off capability, and a Roadmap to 
sustain the Minuteman III fleet through 2030 per congressional 
direction. For the long-term the Air Force has developed plans to 
sustain the legacy bomber fleet through 2040.
    Mr. Langevin. Do you expect the Air Force Nuclear Enterprise 
Roadmap to affect the working relationship between the Air Force and 
other institutions involved in the nuclear enterprise--namely, 
STRATCOM, the Nuclear Weapons Council and the NNSA? If so, please 
explain.
    General Alston. Yes. The Roadmap has increased focus throughout the 
nuclear enterprise and has strengthened and broadened our relationships 
with other stewards of our nuclear deterrence force. Establishing AFGSC 
clarifies and strengthens the relationship and forces presented to the 
USSTRATCOM Commander. USSTRATCOM nuclear requirements are well 
understood because of the working relationship established between 
USSTRATCOM/J8 and A10. Additionally, interactions between the Navy, 
NNSA and the Air Force on everything from a B-61 Life Extension Program 
planning, joint fuze program and stockpile stewardship are more 
frequent and of higher quality than in the past. We would also include 
OSD Policy and AT&L, with whom we have highly functioning 
relationships.
    Mr. Langevin. What sort of interaction does the NWC have with the 
Defense Logistics Agency (DLA)?
    General Thomas. The Air Force Nuclear Weapons Center (AFNWC) has 
formed a partnership with the Air Force Global Logistics Support Center 
(AFGLSC) which capitalizes on and enhances the Air Force's Supply Chain 
Management expert's core competencies to ensure effective, dedicated 
nuclear supply chain management support. The AFGLSC has played a key 
role in defining and instituting a Nuclear Weapons Related Materiel 
Positive Inventory Control concept of operation to deliver the ability 
to identify, protect and account for the location and condition of NWRM 
anywhere in the supply chain at any point in time.
    Specifically, the AFNWC, AFGLSC and DLA have worked closely 
together in establishing the Nuclear Weapons Related Materiel (NWRM) 
Positive Inventory Control (PIC) Storage Facilities at Hill AFB, UT and 
Tinker AFB, OK. The AFGLSC is the principal supply chain interface with 
DLA and has worked closely over the last year to identify and transfer 
over 12,000 NWRM assets from various DLA storage locations to these 
facilities. DLA is providing the current information technology system 
for these facilities and is providing needed training and support for 
operations. Additionally, the AFNWC also participates in a weekly 
telecon with DLA and the Air Staff addressing joint nuclear-related 
actions/issues.
    Mr. Langevin. Could the consolidation of nuclear weapons 
sustainment activities at the Nuclear Weapons Center have mitigated 
against or prevented the mistaken shipment of missile components to 
Taiwan that occurred in 2006? How so?
    General Thomas. It could have mitigated the incident; however, 
human error played a role in the mistaken shipment and prevention 
requires a continuous concerted effort by all involved across the 
nuclear enterprise and our mission partners.
    -- The AFNWC was stood up to reestablish a centralized nuclear 
sustainment focus and expertise that had grown fragmented over the 
years. The increased nuclear oversight of, and collaboration with, 
other AFMC centers and Air Force Major Commands is already paying 
dividends in terms of asset control, improved policies, procedures, 
training and tools.
    -- New Air Force policy on Nuclear Weapons Related Materiel 
Management, in parallel with updated maintenance, supply, 
transportation and acquisition policies, are providing clearer guidance 
and closing the gaps for Air Force personnel.
    -- The AFNWC has formed a partnership with the Air Force Global 
Logistics Support Center (AFGLSC) which capitalizes on and enhances the 
Air Force's Supply Chain Management expert's core competencies to 
ensure effective, dedicated nuclear supply chain management support. 
The AFGLSC has played a key role in defining and instituting a Nuclear 
Weapons Related Materiel Positive Inventory Control concept of 
operation to deliver the ability to identify, protect and account for 
the location and condition of NWRM anywhere in the supply chain at any 
point in time.
    -- The web-based Positive Inventory Control (PIC) Fusion capability 
is providing the AFGLSC, AFNWC and other AF stakeholders with 
unprecedented visibility and control of NWRM assets. It has enabled the 
control of each NWRM transaction and tracking asset movements across 
the AF enterprise.
    Mr. Langevin. What area(s) do you believe are most challenging for 
your organization?
    General Thomas. While we've made tremendous progress to date, we're 
not ready to declare victory yet. Our biggest challenge is time. It 
will take years to overcome decades of atrophy and inattention in 
nuclear sustainment. As such, we will remain focused on executing our 
plan and bringing resources to bear. To reach Full Operational 
Capability, we must create enduring staff processes and instructions to 
capture and codify our best practices and standards, successfully 
advocate for adequate resources, mature and fully man our staff, and 
finally, validate our actions through independent assessments with 
measurable, repeatable and auditable successes in our support to the 
warfighter.
    In this regard, perhaps the most significant challenge that lies 
ahead is with our most important asset - our people. Today we are 
behind the power curve as a result of two gaps. One challenge is that 
the existing talent pool is finite and everyone in the Nation's nuclear 
enterprise is competing for this scarce resource. This naturally leads 
to the second challenge, where we must hire, train, and retain a 
generation of motivated, talented, but inexperienced personnel. As 
such, the future looks bright when this new generation grows to take on 
the middle and senior level positions of leadership and responsibility 
of tomorrow. Today, however, we are leveraging a small and aging 
technical workforce of nuclear professionals. Today's force is heavy 
with experience at the top, and full of fresh faces at entry level, 
leaving a gap in between. To manage this challenge, we have taken 
deliberate steps to identify key nuclear billets requiring nuclear 
expertise; to create and deliver relevant nuclear training; to partner 
with learning institutions to ensure a steady pipeline of expertise; to 
utilize the Total Force by reaching out to the Guard and Reserve 
partners as a bridge to future permanent manning and, finally, to lay 
out career paths that develop today's sustainers, logisticians, 
scientists, engineers, acquirers and program managers to become 
tomorrow's leaders of the force. We have fielded an Air Force Nuclear 
Fundamentals Course that encompasses nuclear weapon fundamentals, force 
structure, nuclear stockpile guidance and planning, nuclear surety, the 
nuclear enterprise, etc. We plan to partner with the Defense Threat 
Reduction Agency University to share best practices and resources. 
Finally, we are working with the Air Staff and Air Force Personnel 
Center to build a robust and well-managed nuclear workforce. We are 
playing a central role by bringing together key players throughout DOD 
to solve our nuclear workforce issues together.
    Mr. Langevin. Air Force nuclear units continue to receive 
`unsatisfactory' ratings in their nuclear surety inspections (e.g., 
498th Nuclear Systems Wing at Kirtland AFB, NM in November 2009; 69th 
Bomb Squadron at Minot AFB, ND in September 2009; and 341st Missile 
Wing at Malmstrom AFB, MO in November 2008). Please discuss why you 
believe these `unsatisfactory' ratings continue to occur and any key 
patterns that have emerged from these inspections. How has the Air 
Force changed, or made improvements to, its nuclear inspections and 
procedures? If changed, what shortcomings were improved? In what 
measurable or quantitative ways have operations improved as a result of 
these changes?
    General Thomas. The Air Force Secretary and Chief of Staff have 
made continuing to strengthen the nuclear enterprise the Air Force's 
top priority. Across the Air Force, and especially within the nuclear 
enterprise, their focus is on renewing the Air Force's commitment to 
long-established standards of excellence. The rigor of our nuclear 
surety inspections demonstrates a new commitment to the highest levels 
of performance. We can expect that it will take time to fully bring 
performance in line with our standards. The inspection results you cite 
represent our absolute commitment to thorough, independent and rigorous 
validation of this mission's most exacting, no-defect standards. There 
is no discernable pattern to these specific inspection results except 
one: they re-confirm the atrophy of focus on existing standards over 
the years that has been well documented and is well known to the 
committee. And so, these results were largely anticipated when a 
renewed emphasis on higher inspection standards met with years of 
declining focus. With every inspection, pass or fail, we hone our craft 
and conduct rigorous root cause analyses to continuously improve. But 
remember, these results represent a snapshot based on a limited sample 
size. The real progress is demonstrated by today's team of military, 
civilian and industry professionals who are delivering safe, secure and 
reliable nuclear capability to the warfighter. Together, we all will do 
even more to ensure 100 percent precision and reliability in our 
nuclear logistics - every task, every day, 100 percent of the time.
    Mr. Langevin. Has the establishment of Global Strike Command 
affected operations within the 8th and 20th Air Forces? How so?
    General Klotz. AFGSC was established to consolidate the Air Force's 
nuclear-capable bomber and ICBM forces under a single command, one that 
provides sharp focus to the organize, train, and equip functions 
necessary in the stewardship of our Nation's deterrent forces. This new 
Command reflects the Air Force's firm and unshakable conviction that 
nuclear deterrence and global strike operations are a special trust and 
unique responsibility.
    The immediate changes may be transparent to many. Eighth and 
Twentieth Air Forces, as well as their subordinate units, have the same 
commanders and perform the same mission as they did before their 
transfer to AFGSC. Likewise, their personnel perform their duties in 
accordance with the same technical orders, Air Force instructions, 
directives and checklists as before.
    What is different is they now have an advocate and champion focused 
solely on the common interests and requirements unique to their 
missions. The Command headquarters is populated by personnel who have 
unique and extensive knowledge of and experience with the nuclear 
deterrence and global strike missions. A high level of headquarters 
expertise and interest is essential to establish and maintain a culture 
of excellence and a climate of discipline in order to provide the 
Nation with a safe, secure and effective deterrent. More focused and 
detailed AFGSC headquarters oversight of unit operations, along with 
highly responsive staff, has already made a positive impact.
    Mr. Langevin. The increased utilization of bomber platforms in the 
conventional role over the last five years and the simultaneous re-
emphasis the Air Force is placing on the nuclear enterprise may combine 
to place real ops tempo stress on airmen and their families. With the 
Air Force having designated fiscal year 2010 as ``Year of the Air Force 
Family'', what reporting methods, metrics and goals are you 
implementing to monitor the ops tempo and quality of life for personnel 
within the bomber enterprise to hopefully avoid over-stressing the 
force?
    General Klotz. AFGSC is establishing programs that recognize 
exceptional innovation and performance and executing a strategic 
communication strategy to foster personal readiness, morale, and 
professional development. AFGSC will be conducting periodic self-
assessments to define, program, and allocate resources for Family Care 
programs. The Command tracks several key indicators--including 
retention rates and Aviator Continuation Pay acceptance rates--to help 
ascertain the ``health'' of the force. In addition to health of the 
force, the AF conducts periodic studies and surveys measuring quality-
of-life. The data from these studies guide AF spending prioritization 
on quality-of-life programs and initiatives. AFGSC will continue to 
actively evaluate quality-of-life programs to improve the support we 
provide to airmen and their families.
    Finally, a major priority of AFGSC will be more effective 
synchronization of exercises and inspections with deployments to ensure 
adequate readjustment time between events in order to reduce stress on 
airmen.
    Mr. Langevin. Please discuss the rationale for why Air Force 
nuclear forces in the U.S. Air Forces-Europe (USAFE) region are not 
included in Global Strike Command or the Nuclear Weapons Center? How 
does the Air Force ensure consistent implementation of policy, 
operational procedures, and standards across these different nuclear 
organizations? What area(s) do you believe are most challenging for 
your organization?
    General Klotz. Air Force nuclear forces in Europe remain under the 
control of USAFE is due to the unique political and operational 
requirements these weapons have within NATO. In addition, the 
Schlesinger Phase II: Review of the DOD Nuclear Mission report stated 
in regard to USAFE's policy, operational procedures, and standards:
    USAFE has worked these issues for years, and has demonstrated 
strong leadership in the surety of the nuclear weapons in Europe, 
always remaining cognizant of host nation perspectives. For these 
reasons, the Task Force recommends that USAFE retain control of the 
WS3s rather than placing them under the NWC.
    The operational control of the USAFE nuclear forces was discussed 
in a meeting between General Brady (COMUSAFE) and Brigadier General 
Thomas NWC/CC and it was agreed that the nuclear forces in USAFE would 
remain under the control of USAFE.
    The scope of the NWC is further documented within the 
``Headquarters United States Air Force, Program Action Directive 08-05, 
Implementation of the Secretary of the United States Air Force and Air 
Force Chief of Staff Direction to Execute Phase III of the Air Force 
Nuclear Weapon Center's Mission Alignment,'' which states:
    AFNWC assuming responsibility for all CONUS-based, nuclear weapons 
under the custody of the Munitions Accountable Systems Officer (MASO), 
nuclear cruise missiles and reentry vehicle/system maintenance, 
storage, accountability, specific handling and control, and select 
Force Development Evaluation (FDE) functions.
    The Air Force will continue to provide consistent implementation of 
policy, operational procedures, and standards across these different 
nuclear organizations through the direction and nuclear integration 
efforts being conducted by A10 and the oversight and inspection 
responsibilities of SAF/IG. The efforts of USAFE and those of NWC are 
providing safe, secure and effective weapons and are adhering to all 
Air Force nuclear policy, operational procedures, and standards.
    Mr. Langevin. Most of the reviews conducted subsequent to the 
mistaken shipment of nuclear weapons from Minot AFB to Barksdale AFB in 
August 2007 identified failures in leadership, training and culture as 
among the contributing factors to the incident. This past October, more 
than a year after the incident, both the 91st Missile Wing Commander 
and 5th Bomb Wing Commander at Minot were relieved of their commands 
for lack of senior leadership confidence in their ability to lead. What 
are the key challenges to changing the culture at Minot AFB? What can 
be done to assist the new wing commanders there as they seek such 
changes?
    General Klotz. Air Force Global Strike Command is dedicated to 
assisting subordinate units in successfully accomplishing their 
missions. AFGSC sees it as a major command's responsibility to provide 
resources and unambiguous guidance in a way that helps them maximize 
mission effectiveness.
    A key challenge for AFGSC is to restore a force with experience in 
the nuclear mission. Expertise requires time to develop, and the 
Command has established a foundation to support this growth in the 
years ahead. Within the personnel system, the Command has already begun 
to identify, track, and carefully manage airmen with skills in the 
nuclear enterprise.
    To help restore a culture of excellence in the nuclear enterprise, 
the AFGSC Commander personally visited each AFGSC base immediately upon 
assumption of the missile and bomber missions. He used these 
opportunities to provide senior military leaders and airmen alike with 
his philosophy and expectations. The Commander's message emphasized the 
vitally important role of nuclear deterrence and global strike 
operations, not only to the Nation, but to its friends and allies 
around the world. The credibility of our Nation's strategic deterrence 
depends not only on capable systems, but also on elite, highly 
disciplined airmen who consistently adhere to the highest standards. 
Finally, the Commander reinforced personal responsibility and 
accountability for individual and team performance.
    Mr. Langevin. Is the attention on Minot obscuring challenges at 
other bases? If so, please discuss.
    General Klotz. No, Headquarters Air Force Global Strike Command is 
intensely focused on all six wings assigned to the Command. It 
proactively monitors operations, maintenance, security and support 
through daily status briefings, the tracking of key metrics, a 
reinvigorated inspection process, and an aggressive program of base 
visits by the Commander, Vice Commander, and senior functional staff 
directors.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. What offices or processes are in place to proactively 
assess the applications of new technologies to the nuclear enterprise?
    General Thomas. Air Force Nuclear Weapon Center (AFNWC) is working 
with Air Force Global Strike Command (AFGSC) to identify and formalize 
our Science and Technology (S&T) process. AFNWC and AFGSC are working 
to create an operating instruction that includes processes for 
interfacing with the Air Force Research Laboratory (AFRL), Department 
of Energy and other nuclear stakeholders to ensure all S&T 
organizational perspectives are incorporated.
    In addition, many nuclear agencies participate in the ICBM Long-
Range Planning (ILRP) working groups and conferences. Members of the 
ILRP include the Headquarters Air Force (HAF), US Strategic Command 
(USSTRATCOM), AFMC, AFNWC, AFGSC, AFRL, Nuclear Wings. There are plans 
to extend invitations to Department of Energy, National Laboratories, 
industry and academia. The ILRP focuses on looking at near-term, mid-
term and long-term sustainment and technology capability gaps to 
determine what's needed to mitigate these gaps. The ILRP is developing 
a technology Roadmap that communicates prioritized needs to the S&T 
community. The nuclear community is leveraging existing S&T processes 
used by Air Force Space Command as a starting point. The nuclear 
community will take best practices to refine the nuclear S&T process.
    The Nuclear S&T Roadmap will prioritize S&T needs based technical 
risk, Nuclear Master Plan needs, and available funding. AFGSC's Master 
Plan will communicate capability needs based on information contained 
in several sources to include: ICBM Master Plan, Weapon System 
Effectiveness Report, input from the technology working group, etc.
    The AFNWC is utilizing the Technology Development and Transition 
Strategy (TDTS) process. This process continuously assesses emerging 
technology as it matures. It is designed to increase confidence levels 
for transitioning technology. This includes establishing stage gates at 
certain intervals of the technology maturation process. This process 
includes sustainment, logistical, testing, and business strategy 
considerations from inception to transition. This process ensures the 
technology meets all warfighter considerations prior to fielding.
    Mr. Turner. What technologies have been considered for process 
improvements since 2008?
    General Thomas. Technologies are being continually assessed for 
their utility in improving the operation of the Nuclear Enterprise.
    Examples include:
    ICBM Demonstration and Validation: Program goal centers on the 
preservation of ICBM critical skills, technologies, and unique 
capabilities. The technologies developed during this process will lead 
to the reduction of technical risks to current and future ICBM Systems. 
This process will also lead to the maturation of technology to a point 
that allows for the transition from lab environment and tech insertion 
into weapon system sustainment and acquisition efforts. Application 
Areas include: Guidance, Propulsion, Reentry Vehicle, Command and 
Control, and Long-range Planning.
    The Air Force has implemented data fusion technology to provide 
enterprise visibility of NWRM assets in maintenance, supply, contract 
repair and transportation. Key logistics domain systems are being 
reviewed and mapped to make data from each of these systems available 
for consolidation into a ``fused'' view enabling visibility of 
accountable assets by serial number. This data fusion also supports the 
tracking and control of all asset transactions and movements. The PIC 
Fusion Center is implementing alerts and notifications if assets 
visibility is lost, serial number or inventory balance discrepancies 
appear, or an asset is late to arrive at its destination when being 
transported.
    The Air Force is leveraging state-of-art identification 
technologies and information technologies to deploy Positive Inventory 
Control. All NWRM assets are required to implement Unique Item 
Identification (UII) tagging. The UII machine readable markings are 
being implemented to eliminate human errors in asset identification 
while being handled in maintenance or supply operations. All NWRM 
packaging requires the application of Radio Frequency Identification 
(RFID) tags. The RFID technology enables the verification of inventory 
and tracking of movements of assets across the AF through the use of 
hand scanners and static portals. (A4)
    Currently the DOD uses the Defense Integration and Management of 
Nuclear Data Services (DIAMONDS) application to track nuclear 
munitions. Another area being examined for process improvement via 
technology insertion is nuclear weapon and Nuclear Weapon Related 
Materiel (NWRM) inventory tracking. This involves combining a suite of 
technologies and applications on a biometrically secure handheld 
computing device to enable the real-time tracking of nuclear warheads 
and nuclear bombs across all USAF installations. This is expected to 
significantly support the Air Force's efforts to reinvigorate the 
Nuclear Surety Mission.
    We are also implementing under the PIC program a commercial off-
the-shelf product lifecycle management (PLM) information technology to 
improve ICBM problem reporting and engineering change management 
processes. This capability will be implemented through spiral releases 
ultimately providing a modern and secure management capability for 
critical ICBM configuration management and nuclear data.
    Mr. Turner. Though there appears to be robust reporting processes 
in place to minimize risk during the movement of nuclear weapons, what 
technologies are currently being considered, developed, or prototyped 
in increase `positive accountability' of warheads? What steps are being 
taken to minimize the time required to positively account for each and 
every warhead and report status up the chain-of-command?
    General Thomas. The Air Force Nuclear Weapons Center (AFNWC) 
established its Sustainment and Integration Center (STIC) to track the 
kind, condition, count and location of all Air Force nuclear weapons 
and nuclear weapons related material (NWRM). The STIC is a 24/7/365 
center to track and monitor Positive Inventory Control of nuclear 
weapons and NWRM. The STIC also facilitates communication with key DOD 
and DOE command centers and provides capabilities to support effective 
crisis management corrective action responses.
    There are several technologies being considered for positive 
accountability. This includes efforts ranging from ``Commander's 
Dashboards'' to biometrically handheld scanners. The AFNWC works with 
Air Force Global Strike Command (AFGSC), Defense Threat Reduction 
Agency, Department of Energy, and Air Force Safety Center to determine 
feasibility of new technologies based on current Concept of Operations 
to ensure all operational conditions are considered prior to pursuing 
new technologies.
    The Center is continually assessing technology in the area of 
nuclear surety and asset tracking. When technology has demonstrated a 
mature enough Technology Readiness Level or becomes commercially 
available, it will be evaluated in terms of its ability to meet the 
validated needs of AFGSC and the needs of the other members of the 
Nuclear Enterprise.

                                  <all>

</pre></body></html>
